Office of Audits and Evaluations
Report No. AUD-13-007


The FDIC’s Controls over Business Unit-
Led Application Development Activities




                                   September 2013
                                     Executive Summary

                                     The FDIC’s Controls over Business Unit-Led
                                     Application Development Activities
                                                                                    Report No. AUD-13-007
                                                                                           September 2013

Why We Did The Audit

Business unit-led application development generally refers to the creation or enhancement of information
technology (IT) solutions where the development is performed under the direction of an FDIC business
division or office (referred to herein as a business unit), rather than the FDIC’s Division of Information
Technology (DIT). In our most recent information security program evaluation report required by the
Federal Information Security Management Act of 2002, we noted that such development activity presents
risk because it generally occurs outside of formal risk management and IT governance processes.
Accordingly, we decided to review this area in more detail.

The objectives of the audit were to identify key risks associated with the FDIC’s business unit-led
application development activities and to determine the extent to which controls have been established to
mitigate those risks.

Background

Within the FDIC, DIT has primary responsibility for managing the FDIC’s IT program and operations,
including the development and enhancement (collectively referred to herein as development) of
applications. The Director, DIT, reports to the FDIC’s Chief Information Officer (CIO), who has
corporate-wide strategic responsibility for IT governance, investments, program management, and
information security. DIT follows formal risk management and IT governance processes when
developing applications. Such processes include the Rational Unified Process systems development life
cycle (SDLC) methodology and corporate policies and procedures that address such things as the
enterprise architecture, data management, information security, privacy, configuration management, and
quality assurance. In addition, the FDIC has established various governance bodies, such as the Capital
Investment Review Committee and the CIO Council, to provide oversight and control of application
development initiatives that meet certain criteria.

The FDIC’s business units also engage in application development activity and, in some cases, have
established specialized IT support service units to perform the development work. Business unit-led
application development ranges from the building of simple applications with only a few users to
complex applications with hundreds of users. Consequently, the cost of the applications can vary from a
few thousand dollars to over $1 million. Such development can also involve creating new data or
collecting sensitive information, such as personally identifiable information, that is used to support
important business functions, such as large bank supervision, the marketing of failing banks, and human
resources management.

Business units fund their application development activities through their operational budgets. However,
there is no FDIC policy requirement for business units to track or report the costs of their development
activities to FDIC management officials, and business units did not do so. As a result, we were unable to
determine the total amount spent on business unit-led application development at the FDIC. The majority
of the FDIC’s business unit-led application development occurs within the Division of Resolutions and
Receiverships and the Division of Risk Management Supervision.




                                                     i
                              To view the full report, go to www.fdicig.gov
  Executive Summary                 The FDIC’s Controls over Business Unit-Led
                                    Application Development Activities
                                                                                    Report No. AUD-13-007
                                                                                           September 2013

In January 2013, DIT began hosting a series of meetings with division and office representatives to
discuss issues associated with business unit-led application development and to develop a corporate
policy and supporting guidance in this area. The corporate policy and guidance is intended to provide,
among other things, criteria for identifying application development efforts that are appropriate for
business unit-led development, the IT governance processes that should apply, and the project activities
involved.

Audit Results
Business unit-led application development provides the FDIC’s divisions and offices with the flexibility
to rapidly develop and deploy IT solutions to support information analysis and management decision-
making. However, this type of development also presents risk because it has generally occurred outside
of the FDIC’s established risk management framework and IT governance processes that are designed to
ensure internal controls are addressed. Key risks associated with the FDIC’s business unit-led application
development activities that we identified during the audit include not:

       recording the applications in the FDIC’s information systems inventory, thereby limiting the
        FDIC’s assurance that the applications are subject to appropriate risk management procedures and
        oversight;

       subjecting development projects to appropriate IT governance processes, thus reducing the
        FDIC’s assurance that IT investment decisions are consistent with corporate and division goals
        and priorities; and

       establishing appropriate SDLC standards, therefore limiting the FDIC’s assurance that
        applications are properly designed and tested, systems documentation is adequate, and
        information security and privacy requirements are addressed.

We identified certain controls that were established by the FDIC’s business units that mitigated, to some
extent, the risks described above. Such controls included SDLC guidelines and procedures to guide
certain application development activities and committees to provide oversight of IT activities. However,
control improvements are needed in all three areas.

Recommendations and Corporation Comments
The FDIC’s planned corporate policy and related guidance on business unit-led application development
can promote a better understanding of this type of development activity and the associated risk
management procedures and IT governance processes that should apply. Our report contains three
recommendations addressed to the FDIC’s Acting CIO that are intended to assist the FDIC with those
ongoing efforts. In general, the recommendations are aimed at establishing appropriate policies,
procedures, and guidance to ensure that applications are recorded in the Corporation’s information
systems inventory, when appropriate; that business units have appropriate IT governance processes and
SDLC standards; and that existing applications comply with FDIC security policies. The Acting CIO
provided a written response, dated September 6, 2013, to a draft of the report. In the response, the Acting
CIO concurred with all three of the report’s recommendations and described ongoing and planned actions
to address the recommendations.

                                                     ii
                              To view the full report, go to www.fdicig.gov
                                Contents

                                                                     Page
Background                                                             2
    Divisions Engaged in Business Unit-Led Application Development     3
    Ongoing Efforts to Address Risks Associated with Business
         Unit-Led Application Development                              3

Audit Results                                                          5

  Risks and Controls Related to Business Unit-Led Application
  Development                                                          6
     Information Systems Inventory                                     6
     IT Governance                                                     7
     Systems Development Life Cycle Standards                         10
     Recommendations                                                  14


Corporation Comments and OIG Evaluation                               15

Appendices
  1. Objectives, Scope, and Methodology                               16
  2. Glossary of Terms                                                21
  3. Acronyms and Abbreviations                                       25
  4. Corporation Comments                                             26
  5. Summary of the Corporation’s Corrective Actions                  29

Table: Sampled Applications                                           19
Federal Deposit Insurance Corporation                                            Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, Virginia 22226                                         Office of Inspector General


DATE:                                       September 11, 2013

MEMORANDUM TO:                              Martin D. Henning
                                            Acting Chief Information Officer


                                            /Signed/
FROM:                                       Stephen M. Beard
                                            Deputy Inspector General for Audits and Evaluations

SUBJECT:                                    The FDIC’s Controls over Business Unit-Led Application
                                            Development Activities (Report No. AUD-13-007)


This report presents the results of our performance audit of the FDIC’s controls over
business unit-led application development1 activities. Although the FDIC has not yet
adopted a formal definition of business unit-led application development, the term
generally refers to the creation or enhancement of information technology (IT) solutions
where the development is performed under the direction of an FDIC business division or
office (referred to herein as a business unit), rather than the Division of Information
Technology (DIT).

The objectives of the audit were to identify key risks associated with the FDIC’s business
unit-led application development activities and to determine the extent to which controls
have been established to mitigate those risks. Our work included interviewing officials in
DIT and selected FDIC business units and reviewing available documentation for a non-
statistical sample of four applications.2 Two of these applications were developed by the
Division of Resolutions and Receiverships (DRR), and two were developed by the
Division of Risk Management Supervision (RMS). We reviewed these four applications
to obtain an understanding of the associated development practices. We did not assess
whether the applications were properly designed or controls were properly implemented.
We reviewed one additional application developed by DIT for reference purposes. The
results of this audit will assist our office in fulfilling its information security program
evaluation and reporting responsibilities under the Federal Information Security
Management Act of 2002 (FISMA).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Appendix 1 of this report includes additional details on our
objectives, scope, and methodology; Appendix 2 contains a glossary of key terms;

1
 Terms that are underlined when first used in this report are defined in Appendix 2, Glossary of Terms.
2
 A non-statistical sample cannot be projected to the population. See Appendix 1 for a complete
description of our sample selection and sampling methodology, including a Table listing the applications
we reviewed.
Appendix 3 contains a list of acronyms and abbreviations; Appendix 4 contains the
Corporation’s comments on this report; and Appendix 5 contains a summary of the
Corporation’s corrective actions.


Background
Within the FDIC, DIT has primary responsibility for managing the FDIC’s IT program
and operations, including the development and enhancement (collectively referred to
herein as development) of applications. The Director, DIT, reports to the FDIC’s Chief
Information Officer (CIO), who has corporate-wide strategic responsibility for IT
governance, investments, program management, and information security.3 DIT follows
formal risk management and IT governance processes when developing applications.
Such processes include the Rational Unified Process® (RUP)® systems development life
cycle (SDLC) methodology and corporate policies and procedures that address such
things as the enterprise architecture (EA), data management, information security,
privacy, configuration management, and quality assurance. In addition, the FDIC has
established various governance bodies, such as the Capital Investment Review
Committee (CIRC) and the CIO Council, to provide oversight and control of application
development initiatives that meet certain criteria.4 As of June 30, 2013, the CIRC was
overseeing an application development budget of $18.45 million for 2013, and the CIO
Council was overseeing an application development budget of $20.99 million for 2013.

The FDIC’s business units also engage in application development activity and, in some
cases, have established specialized IT support service units to perform the development
work.5 According to the FDIC Business Technology Strategic Plan: 2013-2017, this type
of development activity provides the FDIC with the agility to address immediate business
needs with minimal resource demands on DIT. Business unit-led application
development ranges from the building of simple applications with only a few users to
complex applications with hundreds of users. Consequently, the cost of the applications
can vary from a few thousand dollars to over $1 million. Such development can also
involve creating new data or collecting sensitive information, such as personally
identifiable information (PII), that is used to support important business functions, such
as large bank supervision, the marketing of failing banks, and human resources
management.


3
  Prior to July 23, 2013, the positions of DIT Director and CIO were held by the same individual. On that
date, the FDIC implemented an organizational change separating these roles to enhance the IT area and
address a wide range of increasing IT security risks in the current global environment.
4
  The CIRC is responsible for approving and overseeing all capital investment projects, including IT
projects, with total investment budgets of $3 million or more or that are deemed to have a significant
corporate impact, regardless of cost. The CIO Council is responsible for approving and monitoring various
types of IT projects, including application development projects.
5
  FDIC business units, rather than DIT, performed ongoing maintenance for the business unit-developed
applications that we selected for review. Maintenance includes, among other things, changes to production
software to correct known problems and to prevent anticipated problems or inefficiencies.


                                                    2
Business units fund their application development activities through their operational
budgets. FDIC policy directives do not require business units to track or report the costs
of their development activities to FDIC management officials, and no such costs were
being tracked and reported. As a result, we were unable to determine the total amount
spent on business unit-led application development at the FDIC.

Divisions Engaged in Business Unit-Led Application Development

Based on our discussions with DIT and business unit personnel, we determined that the
majority of business unit-led application development occurs within DRR and RMS.
Within DRR, the Business Information Services (BIS) section in Dallas, Texas, and the
Business Program Management (BPM) section in Arlington, Virginia, perform the
development. Within RMS, the Business Analysis and Decision Support (BADS) section
in Washington, D.C., and personnel in the Regional Office Management Information
Groups (ROMIGs) perform the development. A notable difference between DRR and
RMS in their approach to application development is that DRR generally engages
contractors to perform the work, while RMS uses in-house personnel. In addition, DRR
was working to centralize its IT operations (including application development) by
consolidating BIS and BPM, while RMS’ development activities remain decentralized.
At our request, DRR and RMS compiled listings of the applications they had developed
(or were working to develop). DRR’s listing contained 23 applications and RMS’ listing
contained 53 applications. Most of these applications were developed using Oracle®
Application Express (APEX) or Microsoft® Access.6

To help mitigate the risks associated with business unit-led application development,
DRR and RMS each entered into formal agreements with DIT that defined certain roles
and responsibilities and other expectations regarding the use of one particular software
development tool—APEX. Specifically, RMS and DIT executed the FDIC Governance
Plan for Implementation, Use and Support of Application Express (APEX) for DSC, dated
December 2009 (RMS APEX Governance Plan),7 and DRR and DIT executed a
Memorandum of Understanding for Use of Application Express (APEX) by the Division
of Resolutions and Receiverships (DRR), dated December 2010 (DRR APEX MOU). In
general, these agreements contemplate the use of APEX for the rapid development and
deployment of simple applications, reports, and forms. No similar agreements were
executed with other divisions or offices or for other software development tools.

Ongoing Efforts to Address Risks Associated with Business Unit-Led Application
Development

DIT’s 2012 Assurance Statement identifies business unit-led development and/or
procurements of IT systems, solutions, and/or processes outside of established IT
6
  FDIC business units may use other FDIC-approved IT development tools, such as the Statistical Analysis
System (SAS) software, to develop applications. For security reasons, our report does not include the
names of the applications developed by RMS and DRR.
7
  Subsequent to the execution of this document, the FDIC’s Division of Supervision and Consumer
Protection (DSC) was reorganized into RMS and the Division of Depositor and Consumer Protection.


                                                   3
governance and control processes as a non-material challenge for 2013. The assurance
statement explains that modern organizations, including the FDIC, are challenged with
balancing end-user flexibility in the development of business products with the robust IT
security and compliance controls necessary to safeguard the often sensitive data that
those products utilize. According to the assurance statement, business unit-led
application development can create an environment that supports critical business
processes, but these IT activities often do not satisfy FDIC’s requirements for control,
documentation, security, and reliability. The assurance statement adds that the ability of
business units to create their own applications outside of formal FDIC IT processes
creates significant security concerns and additional demands on DIT and business unit
resources.

In our most recent information security program evaluation report required by FISMA,
we noted that development activity in FDIC’s business units presents risk because the
development occurs outside of formal risk management and IT governance processes.8
We recommended that the CIO coordinate with the FDIC’s business divisions and offices
to develop criteria that define when business unit-led application development efforts
should be incorporated into the FDIC’s risk management framework and IT governance
processes. The CIO concurred with the recommendation and agreed to submit a
corporate policy and supporting guidance to the FDIC’s Division of Administration,
which has responsibility for issuing corporate policy directives, by July 1, 2013.9

In January 2013, DIT began hosting a series of meetings with division and office
representatives to discuss issues associated with business unit-led application
development and to develop a corporate policy and supporting guidance in this area.
During the interdivisional meetings, it was recognized that:

       a better understanding of what constitutes an application for purposes of applying
        risk management procedures and IT governance processes is needed.

       the FDIC has a duty to ensure that all business unit-led application development
        efforts adhere to certain established practices and standards to ensure the solutions
        meet agency business needs, are consistent with relevant risk management
        policies, and comply with applicable federal laws and FDIC policies and
        guidelines (including those related to information security).

       the level of risk management and IT governance applied to application
        development should be commensurate with the risks and complexities of the
        development efforts. In many cases, such as when business units develop simple
        spreadsheets, databases, and reports, minimal risk management requirements
        should apply.


8
  Independent Evaluation of the FDIC’s Information Security Program—2012 (Report No. AUD-13-003,
dated November 5, 2012).
9
  DIT management subsequently extended this date to October 1, 2013.


                                                4
The corporate policy and related guidance under development is intended to provide,
among other things, criteria for identifying application development efforts that are
appropriate for business unit-led development, the IT governance processes that should
apply, and the project activities (including security activities) involved.


Audit Results
Business unit-led application development provides the FDIC’s divisions and offices with
the flexibility to rapidly develop and deploy IT solutions to support information analysis
and management decision-making. However, this type of development also presents risk
because it has generally occurred outside of the FDIC’s established risk management
framework and IT governance processes that are designed to ensure internal controls are
addressed. Key risks associated with the FDIC’s business unit-led application
development activities that we identified during the audit include not:

      recording the applications in the FDIC’s information systems inventory, thereby
       limiting the FDIC’s assurance that the applications are subject to appropriate risk
       management procedures and oversight;

      subjecting development projects to appropriate IT governance processes, thus
       reducing the FDIC’s assurance that IT investment decisions are consistent with
       corporate and division goals and priorities; and

      establishing appropriate SDLC standards, therefore limiting the FDIC’s assurance
       that applications are properly designed and tested, systems documentation is
       adequate, and information security and privacy requirements are addressed.

We identified certain controls that were established by the FDIC’s business units that
mitigated, to some extent, the risks described above. Such controls included SDLC
guidelines and procedures to guide certain application development activities and
committees to provide oversight of IT activities. However, control improvements are
needed in all three areas.

As discussed earlier, the FDIC was working to develop a corporate policy and related
guidance that is intended to promote a better understanding of what constitutes business
unit-led application development and the associated risk management procedures and IT
governance processes that should apply. Such policy and guidance is intended to be
commensurate with the risks and complexities of the development efforts. Our report
includes three recommendations intended to further the FDIC’s ongoing efforts to
establish appropriate policies, procedures, and guidance over these activities.




                                            5
Risks and Controls Related to Business Unit-Led Application
Development
We identified key risks associated with the FDIC’s business unit-led application
development activities by reviewing relevant internal FDIC documents, such as DIT’s
2012 Assurance Statement and the FDIC Business Technology Strategic Plan: 2013-
2017; interviewing DIT and business unit personnel; gaining an understanding of the
FDIC’s approach to this type of development; and researching industry guidance. We
determined the extent to which controls were established to mitigate those key risks by
reviewing FDIC policies, procedures, and guidance, the roles and responsibilities of IT
governance bodies, and other relevant control activities; interviewing DIT and business
unit personnel; and reviewing the FDIC’s development practices for a sample of
applications. A description of these key risks and controls, as well as actions that the
FDIC can take to further mitigate the risks, follows.

Information Systems Inventory

FISMA requires federal agencies, including the FDIC, to provide risk-based information
security protections for all of their information systems (including applications).
Establishing and maintaining a current, accurate, and complete inventory of information
systems can support agency efforts to address this risk management requirement and to
determine where the agency’s information security program should direct its resources.
In addition, the inventory can facilitate application portfolio analysis and reporting in
support of IT governance processes and the EA. The FDIC currently uses the EA
Repository (EA-Rep) as an inventory tool to record important information about the
FDIC’s applications, such as key business, technical, and contractor contacts, number of
users, security category, privacy impact, mission criticality, and supporting hardware and
software resources.

A key risk associated with business unit-led application development is that applications
may not be recorded in the FDIC’s information systems inventory, thereby limiting the
FDIC’s assurance that such applications are subject to appropriate risk management
procedures and oversight.10 The inventory helps the FDIC ensure that business unit-led
applications containing sensitive or privacy information are properly identified as such
and aggregated under a general support system (GSS) or major application for purposes




10
   According to FISMA, information security protections should be commensurate with the risk and
magnitude of the harm resulting from the unauthorized access, use, disclosure, disruption, modification, or
destruction of information and information systems. FISMA also requires agencies to maintain an
inventory of major information systems (44 U.S.C. § 3505(c)). The FDIC uses application information in
the EA-Rep to satisfy that requirement.


                                                     6
of applying security oversight.11 Such oversight includes testing and evaluation of
security controls, authorizations to operate, and acceptance of residual risk.

On December 15, 2010, DIT issued Policy Number 10-004, Policy on Maintaining the
Enterprise Architecture Repository (EA-REP). The policy establishes responsibilities for
ensuring that information in the EA-Rep is accurate, complete, and up-to-date. However,
the policy is targeted to DIT employees and the systems and applications that are
developed or supported by DIT, and does not specifically reference applications
developed by the FDIC’s business units. The RMS APEX Governance Plan requires that
all APEX applications developed by RMS be recorded in the EA-Rep. The DRR APEX
MOU does not contain this specific requirement but does require DRR to ensure
compliance with DIT policies and standards.

We reviewed the EA-Rep and found that it did not contain APEX applications developed
by DRR’s BIS or RMS. In addition, the EA-Rep did not contain one of the two RMS
applications in our sample that was developed with Microsoft® Access.12 Although the
EA-Rep contained APEX applications developed by DRR’s BPM, we noted that those
applications, as well as APEX applications developed by DIT, were not consistently
identified as APEX applications in the EA-Rep. These inconsistencies limited the
FDIC’s assurance that the population of APEX applications recorded in the EA-Rep was
complete. Further, neither DRR nor RMS maintained a single authoritative inventory of
the applications they developed.13

The FDIC can mitigate the risks described above by including language in its planned
policy on business unit-led application development that requires business units to ensure
their applications are recorded in the FDIC’s information systems inventory, when
appropriate.

IT Governance

Effective IT governance processes help ensure that management’s expectations are met
and that relevant risks are mitigated. The FDIC’s formal IT governance structure consists
of governance bodies, including the CIRC and CIO Council; corporate policies,
procedures, and guidance; and the FDIC Business Technology Strategic Plan: 2013–
2017. At the business unit level, RMS established the RMS IT Portfolio Review
Committee (PRC) in April 2004 to advise RMS’ executive management on the selection

11
   FDIC security plans for minor applications identify the GSS or major application that provides the
majority of security controls for the minor application. Security testing of minor applications is then
covered by (or “aggregated under”) the security testing of the associated GSS or major application. This
process of aggregating minor applications under a GSS or major application represents a cost-effective
alternative to conducting separate security procedures for individual applications. However, the process
requires that DIT be aware of the minor applications, and the inventory facilitates this awareness.
12
   We also identified two Microsoft® Access applications supported by DRR’s BPM that were not in the
EA-Rep.
13
   DRR maintained an inventory of APEX applications developed by DRR BIS on a SharePoint site. Other
lists of DRR applications were also stored on DRR’s Intranet site.


                                                   7
and monitoring of important new IT development projects. In addition, DRR established
the DRR Systems Governance Board (SGB) in October 2011 to oversee its IT activities,
including the approval of rapid application development projects and the resources
needed to support those projects.

A key risk associated with business unit-led application development is that it may not be
subject to appropriate IT governance processes, thus reducing the FDIC’s assurance that
IT investment decisions are consistent with corporate and division goals and priorities.
For example, business units may design applications that duplicate existing functionality
or data, resulting in unnecessary costs and inefficiencies. Inadequate IT governance
processes may also result in unexpected delays to IT projects that have been approved
through formal processes if DIT needs to divert resources to address unanticipated issues
with applications developed by business units.

An important component of IT governance is the formal review and approval of
development proposals to ensure they satisfy corporate and division goals and priorities.
Neither of the development proposals for the two DRR applications that we selected for
review had been reviewed or approved by the SGB because it was established after the
applications were initially developed. However, DRR officials informed us that the SGB
now reviews business unit-led development proposals. We were provided with a
template used to prepare such development proposals and an example of SGB meeting
minutes showing that the SGB had discussed the justification and level of effort for a
more recent application development effort. A DRR official informed us that the division
was working to document its end-to-end IT governance processes.

With respect to the two RMS applications that we reviewed, an RMS official informed us
that the PRC did not review one of the applications because it was developed with APEX
and the PRC does not review APEX development proposals.14 RMS officials thought
that the remaining application may have been reviewed by the PRC but were not able to
locate any documentation pertaining to a PRC review of the application. In addition,
because the PRC did not maintain meeting minutes, we were unable to determine the
extent to which RMS application development efforts were reviewed and discussed by
the PRC. An RMS official informed us that RMS plans to expand the responsibilities of
the PRC to include additional oversight of business unit-led application development
projects.

The agreements between DRR, RMS, and DIT on APEX were intended to help guide and
control APEX development activities. The agreements noted the need for collaboration
and communication between DIT and the divisions to ensure effective development.
However, DIT, DRR, and RMS officials informed us that communication between the
business units and DIT regarding the use of the APEX tool was not always effective. As
a result, DIT was not aware of the extent to which APEX development activities were
taking place in the business units.


14
     Of the 53 applications that RMS developed (or were working to develop), 11 were APEX applications.


                                                     8
Another important component of IT governance is the formal management decision to
authorize the deployment of an application into the production environment based on an
independent verification that all required application development activities have taken
place. DRR had various written guidelines15 and work products pertaining to the review
and authorization of its application deployment activities. However, RMS had not
developed written guidelines or work products that addressed those activities. An RMS
official informed us that applications and reports that are expected to become permanent
or reach a significant user base are tested by developers and pilot users, and receive RMS
management approval before they are placed into production.

Cost management, including comparing projected costs and benefits to actual results, is
also a fundamental tenet of IT governance. As previously discussed, there is no FDIC
policy requirement for business units to track and report the costs of their application
development activities to FDIC management officials. However, at our request, DRR
officials estimated that about $8.3 million in contractor resources were expended to
develop and maintain 14 APEX applications during the period September 2010 through
June 2013.16 Notably, estimated contract expenditures for 4 of the 14 applications
exceeded $1 million each, the highest of which was $1.54 million. RMS used in-house
personnel, rather than contractors, to develop its APEX applications. RMS did not track
the in-house costs of its application development efforts. Further, although DRR’s BIS
estimated the cost of in-house personnel involved in developing individual APEX
applications, DRR’s BPM did not. Because DRR and RMS funded application
development through their operational budgets, the costs were not subject to CIO Council
oversight.

The FDIC can strengthen its controls over business unit-led application development
activities by including language in the planned corporate policy requiring business units
to develop and document appropriate IT governance processes. Such processes should
address the review and approval of development proposals, the decision-making process
to authorize the deployment of applications into the production environment, and the
tracking and reporting of application development costs. Such processes should also be
scaled to the risk and complexity of the development activities involved so as not to
unduly impede the ability of business units to address low risk (as determined by the
significance of the functionality and sensitivity of the data being processed and
maintained) reporting, analytical, and automation needs.




15
   The guidelines included the FDIC Business Information Systems (BIS) Configuration Management –
Change Control Guide Version 1.0, dated November 30, 2011; the Business Information Systems (BIS)
Configuration Management Plan, Version 1.0, dated September 25, 2012; and the FDIC PRR
Configuration Management Plan Version: 1.0, dated December 5, 2012.
16
   At the close of our audit, we were informed that DRR planned to procure significant contractor support
for business unit-led application development, maintenance, and operational support as well as expert
resources in WebFocus.


                                                     9
Systems Development Life Cycle Standards

The SDLC is the process of managing information systems from initiation, analysis,
design, implementation, and maintenance, to disposal. The National Institute of
Standards and Technology (NIST) recommends that federal agencies have a documented
and repeatable SDLC policy and guideline that support the agencies’ business needs and
complement their unique culture.17 In addition, our review of industry research in this
area indicates that some leading organizations are creating processes to set standards for
sourcing, developing, and deploying IT, to be applied throughout the enterprise. These
organizations then assess and recognize (through training and accreditation) staff outside
of the formal IT organization that need or want to have the necessary capabilities and
approach to meet those standards. According to the research, this approach provides
CIOs with increased assurance that appropriate standards of agility, architectural
compliance, maintainability, and security are followed throughout the organization.

DIT Policy Number 07-005, Systems Development Life Cycle, states that DIT has adopted
a customized RUP® SDLC methodology to meet the FDIC’s specific requirements for
application development. RUP® contains process roadmaps that provide step-by-step
activities for development projects of varying size, type, risk, and complexity.
Applications developed by the FDIC’s business units are not required to follow RUP®,
and DRR and RMS have developed their own approach to application development. In
addition, both divisions have an information security manager (ISM) who is responsible
for assisting application development teams in addressing information security and
privacy requirements.

A key risk associated with business unit-led application development is that business
units may not establish appropriate written SDLC standards, therefore limiting the
FDIC’s assurance that:

        applications are properly designed and tested to ensure they operate as intended,

        systems documentation is sufficient to support effective maintenance, and

        security and privacy requirements are addressed.

SDLC Standards

SDLC standards, which are defined through written procedures and guidelines and
documented work products, provide an important control for ensuring that application
development processes are repeatable, consistent, and disciplined and for reducing
operational risk associated with changes in staff. Training can provide increased

17
   See NIST Special Publication 800-64, Revision 2, Security Considerations in the System Development
Life Cycle, dated October 2008. This publication helps address requirements in FISMA that federal
agencies, including the FDIC, have policies and procedures to ensure that information security is addressed
throughout the life cycle of their information systems.


                                                    10
assurance that SDLC standards are properly implemented. Although we did not include
training within the scope of this audit, we did recommend in our 2012 information
security program evaluation report that the CIO update the FDIC’s IT security training
plan to clarify the FDIC’s approach for addressing the corporate-wide information
security training needs of individuals with significant information security
responsibilities. Such individuals can include business unit personnel engaged in
application development. As described below, DRR and RMS had not developed a
policy addressing SDLC standards for their business unit-led application development,
established consistent written SDLC standards, or designated a standard repository to
store their application code and software documentation.

In July 2011, DRR issued high-level SDLC guidance to supplement the DRR APEX
MOU. Subsequently, in 2012, DRR’s BPM and BIS separately developed informal
SDLC guidelines. Although these guidelines were based on DIT’s RUP® methodology,
their content and level of specificity differed. Specifically, BPM’s Client Development
Guidelines defined key application development phases and activities, required work
products, and roles and responsibilities, while BIS’s DRR SDLC - Rapid RUP® provided
more limited process guidance. In addition, neither of the guidelines adequately
addressed procedures for documenting consideration and implementation (as necessary)
of requirements pertaining to the EA and Section 508 accessibility.18 Further, DRR
officials informed us that the division had selected StarTeam® as its standard repository
for storing business unit developed application code and software documentation.19 DRR
officials also informed us that they were working to develop formal SDLC guidelines to
promote consistency in DRR’s application development activities.

RMS did not have written SDLC guidelines to govern its application development
activities. However, we noted that RMS developers had various documentation
indicating certain change management and quality assurance testing activities had been
performed prior to the deployment of the applications we reviewed. In addition, RMS
stored its business unit-developed application code and software documentation on
various shared drives or in StarTeam®. However, RMS had not formally designated a
standard repository for storing this information.

The written agreements between DRR, RMS, and DIT regarding the use of APEX also
provide some SDLC guidance. However, the agreements address only those applications




18
   See FDIC Circulars 1303.1, FDIC Enterprise Architecture Program, dated June 16, 2008, and 2711.1,
Electronic and Information Technology (EIT) Accessibility Pursuant to Section 508 of the Rehabilitation
Act, dated September 27, 2007. It is generally the responsibility of application developers in the business
units to coordinate with DIT subject matter experts to ensure requirements pertaining to the EA and Section
508 are addressed. DIT personnel advised us that guidance was being developed to facilitate compliance
with Section 508 requirements, as applicable, for all FDIC applications.
19
   DIT also uses StarTeam® as a repository of application code and software documentation (including
copies of security and privacy-related work products).


                                                    11
developed with APEX and do not adequately address the development-related controls
described in this report. Such controls include ensuring that:

      applications are designed to align with the FDIC’s current and target EA;

      data duplication and redundant processes are mitigated to the extent possible;

      software components are uniquely identified, consistently stored, subject to
       appropriate version control and change control processes, and adequately tested
       and reviewed prior to implementation;

      applications are Section 508 compliant, that is, they are as accessible to persons
       with disabilities, including employees and members of the public, as they are for
       persons without disabilities; and

      applications are reviewed for sensitivity and that sensitive information is
       adequately protected from unauthorized access or modification.

Absent appropriate written SDLC standards to guide application development in the
business units, there is an increased risk that applications will not be properly designed or
tested as intended or that systems documentation will not be sufficient to support
effective maintenance.

Information Security and Privacy

Important controls for ensuring that information security and privacy are integrated into
applications include sensitivity assessments, privacy reviews, security planning, access
control reviews, and separation of duties. FDIC Circular 1310.3, Information Technology
Security Risk Management Program, dated July 6, 2005, states that all FDIC applications
must undergo a sensitivity assessment to examine the sensitivity level of the information
they process and determine their security category. This assessment is documented in an
Application Security Assessment (ASA). The FDIC has also established policies and
procedures requiring divisions and offices to complete a privacy questionnaire, referred
to as a Privacy Threshold Analysis (PTA), whenever new systems or applications are
developed or acquired. The PTA is used to determine whether a statutory Privacy Impact
Assessment (PIA) is required.

In addition, Circular 1310.3 states that a security plan shall be developed and tested for
all sensitive applications. Security plans provide an overview of the application or
system security requirements and describe the controls that are planned or in place to
meet those requirements. Further, FDIC Circular 1360.15, Access Control for
Information Technology Resources, dated February 27, 2009, requires periodic reviews
of access to ensure consistency with existing authorizations and current business needs.
It also addresses the concept of separation of duties.




                                             12
An ASA, PTA, and security plan were prepared for each of the two DRR applications
that we selected for review. In addition, an ASA, PTA, and security plan were prepared
for one of the two RMS applications that we reviewed. However, the ASA and security
plan for this RMS application were drafted in late 2011, but not finalized, reviewed, and
approved by the RMS ISM until May 2013, approximately 1 year after the application
was placed into the production environment. The RMS ISM informed us that APEX
applications and applications developed in the RMS regional offices are subject to ISM
review only upon request by the development teams.20 An ASA and PTA were not
prepared for the remaining RMS application that we reviewed because the system
manager was not aware of the policy requirements for these work products. We were
informed that this application contains sensitive information. As a result, it may require a
security plan depending on the results of an ASA, and/or a PIA depending on the results
of a PTA.

As of the close of our audit, DRR officials had not provided ASAs or security plans for
their APEX applications to DIT’s Information Security and Privacy Staff (ISPS). DRR
officials indicated that they were awaiting guidance from DIT’s ISPS regarding the
submission of these documents. RMS recently provided such work products to DIT’s
ISPS. DIT’s ISPS uses information from these work products, along with the systems
inventory, to help ensure that security for minor applications, including those developed
by the FDIC’s business units, is coordinated with the security oversight of GSSs and
major applications. We noted that the aggregation of security plans to GSSs by DRR,
RMS, and DIT was inconsistent for the four APEX applications that we reviewed,
limiting the FDIC’s assurance that these applications are subject to appropriate security
oversight.21

Further, DRR had established written access control procedures that addressed access
reviews for all of the division’s applications, including those developed under the
division’s direction. Although an RMS official provided us with a guideline and some
examples of periodic access control reviews for one of our sampled applications, RMS
had not established written access control procedures covering all their business unit-
developed applications. Access control reviews involve periodically verifying that user
accounts are properly authorized and confirming that specific permissions granted remain
appropriate. Completing such reviews, which are consistent with the security principle of
least privilege, provides assurance that users remain in appropriate roles and status and
that only appropriate users have administrative access.

20
   According to the RMS ISM, an ASA, PTA, and security plan (if applicable) have been completed for 2
of the 11 APEX applications developed or under development by RMS. The RMS APEX Governance Plan
does not specifically require the completion of an ASA, PTA, or security plan for RMS APEX applications.
However, it does contain a general requirement that RMS complete and submit the security work products
necessary to satisfy regulatory mandates.
21
   The two DRR applications we reviewed were primarily aggregated to the Enterprise Data Management
GSS, and the RMS application was primarily aggregated to the Windows Server GSS. The DIT application
was aggregated to the Midrange Servers GSS. The RMS APEX Governance Plan indicates that all APEX
applications developed by RMS should be aggregated to the Enterprise Data Management GSS. The DRR
APEX MOU does not contain guidance regarding aggregation.


                                                  13
Separation of duties in the context of systems development involves having different
individuals performing key functions (e.g., programming and maintenance). Such a
control is important for mitigating the risk of malevolent IT activities, improper program
changes, and unauthorized access to sensitive information. We noted that DRR had
established controls to restrict application development personnel from accessing the
production environment. However, separation of duties for the two RMS applications we
reviewed were not adequate because the personnel responsible for developing the
application code were also responsible for transferring the code into, and had access to
the code in, the production environment. We were also informed that RMS’ APEX
development and quality assurance activities were performed by developers in a pre-
production environment on a production server that is separate from the application
workspaces and data used for production.

The FDIC can achieve increased assurance that security and privacy requirements are
addressed in business unit-led application development by establishing controls to
address the issues described in this report.


Recommendations

We recommend that the Acting CIO:

1. Include language in the planned corporate policy on business unit-led application
   development that requires FDIC business units to:

       a) coordinate with DIT to ensure that applications developed by business units
          are recorded in the Corporation’s information systems inventory, when
          appropriate; and

       b) develop written IT governance processes that address the review and approval
          of development proposals, the decision-making process for authorizing the
          deployment of applications to the production environment, and the tracking
          and reporting of application development costs.

2. Coordinate with FDIC business units involved in application development to establish
   appropriate written SDLC standards that are consistent with applicable laws, policies,
   and guidelines, and commensurate with the risks and complexity of their development
   activities.

3. Coordinate with DRR and RMS to ensure that existing applications developed under
   the divisions’ direction comply with FDIC security policies pertaining to sensitivity
   assessments, privacy reviews, security plans, access control reviews, and separation
   of duties.




                                            14
Corporation Comments and OIG Evaluation
The Acting CIO provided a written response, dated September 6, 2013, to a draft of this
report. The response is presented in its entirety in Appendix 4. In the response, the
Acting CIO concurred with all three of the report’s recommendations and described
ongoing and planned actions to address the recommendations.

A summary of the Corporation’s corrective actions is presented in Appendix 5. The
ongoing and planned actions are responsive to the recommendations, and the
recommendations are resolved.




                                           15
                                                                                           Appendix 1

                Objectives, Scope, and Methodology
Objectives

The objectives of the performance audit were to identify key risks associated with the
FDIC’s business unit-led application development activities and to determine the extent
to which controls have been established to mitigate those risks.

We conducted this performance audit from January 2013 to July 2013 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

We identified key risks associated with the FDIC’s business unit-led application
development activities by reviewing relevant internal FDIC documents, interviewing DIT
and business unit personnel, and researching industry guidance. We determined the
extent to which controls were established to mitigate those key risks by reviewing
relevant FDIC policies, procedures, and guidance, the role of IT governance bodies, and
other relevant control activities; interviewing DIT and business unit personnel; and
reviewing the FDIC’s development practices for a sample of applications. Our work
related to controls was limited to determining the extent to which policies, procedures,
reports, IT governance bodies, and other relevant control activities were in place. We did
not assess whether these controls were effectively implemented or operating as intended.

To achieve the audit objectives, we performed the following procedures:

    Interviewed personnel in RMS, DRR, DIT, the Division of Depositor and Consumer
     Protection, Division of Insurance and Research, Division of Finance, and Division of
     Administration who were involved with business unit-led application development to
     obtain their perspectives on relevant risks, controls, development practices, tools, and
     costs.

    Obtained an understanding of corporate and division-level policies22 and procedural
     guidance related to application development by reviewing the following:

             o FDIC Circular 1303.1, FDIC Enterprise Architecture Program
             o FDIC Circular 1301.3, Enterprise Data Management Program
             o FDIC Circular 1310.3, Information Technology Security Risk Management
               Program
22
   In general, these FDIC policies are founded on legislative requirements or on standards and guidance
issued by NIST.


                                                    16
                                                                                           Appendix 1

                 Objectives, Scope, and Methodology
             o   FDIC Circular 1360.8, Information Security Categorization
             o   FDIC Circular 1320.4, FDIC Software Configuration Management Policy
             o   FDIC Circular 1360.18, FDIC Software Quality Assurance Policy
             o   FDIC Circular 2711.1, Electronic and Information Technology (EIT)
                 Accessibility Pursuant to Section 508 of the Rehabilitation Act
             o   DIT Policy Number 07-005, Policy: Systems Development Life Cycle
             o   DIT Policy Number 10-004, Policy on Maintaining the Enterprise
                 Architecture Repository (EA-REP)
             o   FDIC Governance Plan for Implementation, Use and Support of
                 Application Express (APEX) for DSC
             o   Memorandum of Understanding for Use of Application Express (APEX)
                 by the Division of Resolutions and Receiverships (DRR)
             o   DRR Business Program Management Section (BPMS) Client
                 Development Guideline
             o   DRR Business Information System’s DRR SDLC – Rapid RUP®
             o   DRR APEX Software Development process guidance

    Reviewed internal FDIC documents, such as the FDIC Business Technology Strategic
     Plan 2013-2017 and DIT’s 2012 Assurance Statement submitted pursuant to the
     Federal Managers’ Financial Integrity Act,23 the Chief Financial Officers Act of
     1990,24 and FDIC Circular 4010.3, FDIC Enterprise Risk Management Program, for
     information about risks related to business-unit led application development.

    Reviewed industry guidance, such as the Institute of Internal Auditors’ June 2010
     publication, entitled Global Technology Audit Guide (GTAG®) 14, Auditing User-
     developed Applications; analysis and recommended best practices developed by a
     recognized IT research and advisory company; and NIST Special Publication 800-64,
     Revision 2, Security Considerations in the System Development Life Cycle, dated
     October 2008; for information about risks and controls related to business-unit led
     application development.

    Observed interdivisional meetings held to develop policy and guidance associated
     with business unit-led application development to obtain an understanding of
     potential risks and controls related to such development.

    Obtained and reviewed available information regarding the number of applications
     developed by DRR and RMS and the associated costs. The purpose of this procedure

23
  Pub. L. 97-255, codified to 31 U.S.C. § 3512.
24
  Section 306 of the Chief Financial Officers Act (Pub. L. 101-576, codified to 31 U.S.C. § 9106) requires
government corporations, such as the FDIC, to submit annual management reports to the Congress that
include a statement on internal accounting and administrative controls consistent with the Federal
Managers’ Financial Integrity Act. The statement is included in the FDIC’s Annual Report, for which
DIT’s Assurance Statement serves as input.


                                                    17
                                                                                             Appendix 1

                 Objectives, Scope, and Methodology
     was to obtain an understanding of the extent to which business units in these divisions
     engage in application development activities.

    Selected a non-statistical sample25 of four applications developed by DRR and RMS
     operating in the production environment as of April 11, 2013 from a population of
     business-developed applications identified by DRR and RMS, which consisted of 7
     DRR applications and 14 RMS applications.26 Because DRR and RMS did not
     maintain official information systems inventories, we were unable to verify that the
     population provided to us was complete. We reviewed the four applications to obtain
     an understanding of the IT governance, application development practices, and
     controls employed by FDIC’s business units to develop the applications. We did not
     assess whether the applications were adequately designed or whether development
     policies, procedures, and guidance had been properly implemented.

     We judgmentally selected the four applications based on whether they met one or
     more of the following criteria:

         o   Received data from, or provided data to, a major application
         o   Contained PII or other sensitive information
         o   Supported more than 100 users
         o   Involved a development time of two months or more
         o   Used data owned by another FDIC division

For reference purposes, we also judgmentally selected one of six APEX applications
developed by DIT for the business divisions in the years 2008 through 2013. We selected
the application because it contained PII or other sensitive information and had more than
one software version. The table below identifies the applications that we selected.




25
   The results of a non-statistical sample cannot be projected to the intended population by standard
statistical methods.
26
   This population is a subset of the total universe of 16 and 53 business-developed applications identified
by DRR and RMS, respectively, at the time our audit sample was selected. The population included only
those applications in the production environment developed using APEX or Microsoft Access/Structured
Query Language Server, as we considered applications developed with these tools to potentially have
higher risk. As of August 30, 2013, DRR informed us that, after further review, its universe of business-
developed applications totaled 23 (as opposed to the 16 referenced above when our sample was taken).


                                                     18
                                                                                             Appendix 1

                Objectives, Scope, and Methodology
Table: Sampled Applications
  Application
                                           Application
   Number           Developed By                                     Application Description
                                             Type

 1                 DRR’s BIS            APEX                  Tracks the inventory and status of the
                                                              marketing and management of ORE assets
                                                              assigned to ORE contractors.

 2                 DRR’s BPM            APEX                  Tracks DRR employees, positions, and
                                                              vacancies through the onboarding process.
 3                 RMS’ BADS            APEX                  Automates the forms used for performance
                                                              management and recognition of all pre-
                                                              commissioned examiners.
 4                 RMS’ ROMIGs          Microsoft Access/     Captures RMS’ quarterly analysis of
                                        Structured Query      insured depository institutions with assets
                                        Language Server       greater than $10 billion.
 5                 DIT                  APEX                  Tracks the status of background
                                                              investigations for employees and
                                                              contractors.
Source: Listings of DRR- and RMS-developed applications provided by DRR and RMS personnel,
respectively, and a listing of DIT-developed APEX applications provided by DIT personnel. We refer to each
application sampled by number (versus application name) for security purposes.

For the applications selected, we interviewed DRR, RMS, and DIT development
personnel (as applicable). We also obtained and reviewed available SDLC
documentation maintained in various repositories, including shared folders, SharePoint
sites, and StarTeam. In general, this documentation related to application development
activities that occurred during the period April 2010 through May 2013. We performed
these audit procedures to determine whether DRR and RMS had established, through
written policies, procedures, and guidance, controls designed to mitigate the key risks we
identified related to business unit-led application development.

We performed our audit work at the FDIC’s offices in Dallas, Texas, and Arlington,
Virginia.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

As described in the Scope and Methodology section of this Appendix, we performed
audit procedures to identify and obtain an understanding of the FDIC’s established
internal controls related to business unit-led application development activities.
However, consistent with our audit objectives, we did not assess the implementation or
effectiveness of those controls or the adequacy of the FDIC’s overall internal control or
management control environment. Our report identifies certain internal control gaps
warranting management’s attention.


                                                   19
                                                                              Appendix 1

              Objectives, Scope, and Methodology
We did not rely on automated information from the FDIC’s information systems that
were significant to our audit objectives, conclusions, or findings. Accordingly, we did
not assess the effectiveness of information system controls.

The Government Performance and Results Act of 1993 (the Results Act), as amended,
directs Executive Branch agencies to develop a customer-focused strategic plan, align
agency programs and activities with concrete missions and goals, and prepare and report
on annual performance plans. We did not assess the strengths and weaknesses of the
FDIC’s annual performance plans in meeting the requirements of the Results Act because
such an assessment was not significant to the audit objectives.

Regarding compliance with laws and regulations, our report identifies gaps in controls
that, if not addressed, could result in non-compliance with federal statutes, such as the E-
Government Act of 2002—particularly Section 208 regarding privacy impact
assessments and title III (also known as FISMA) regarding information security. In
addition, we assessed the risk of fraud and abuse related to our objectives in the course of
evaluating audit evidence.




                                             20
                                                                                  Appendix 2

                            Glossary of Terms
     Term                                           Definition

Application       Per FDIC Circular 1360.18, FDIC Software Quality Assurance Policy, the
                  aggregate of information technology that processes, stores, and/or transmits
                  information to satisfy client requirements, such as the need to inventory and
                  track the marketing and management of assets.

Application       An examination of the sensitivity level of the information processed by an
Security          application to determine the application’s security category. This security
Assessment        category indicates the potential impact on the FDIC’s mission if the
(ASA)             confidentiality, integrity, and/or availability of the system and its data were
                  compromised.

Assurance         As part of the process for preparing the FDIC’s Annual Report (see 31
Statement         U.S.C. § 3516(b)), division and office directors provide assurance to the
                  FDIC Chairman after considering their division’s or office’s overall
                  activities in conjunction with the results of management’s on-going
                  evaluations of internal control operations, programs, and systems along with
                  the results of audits and reviews conducted by the FDIC OIG, GAO, or
                  external firms. The assurance is communicated in the form of an assurance
                  statement that addresses compliance with applicable internal control
                  standards.

Business Unit-    The creation or enhancement of IT solutions where the development is
Led Application   performed under the direction of an FDIC business unit.
Development
Configuration     The technical and administrative process to identify, document, and
Management        maintain configuration item integrity, control configuration item changes,
                  and record and report on configuration item change processing status. A
                  configuration item is a unit or aggregate of documentation, software and/or
                  hardware that is designated for configuration management.

Enterprise        Describes the current and desired future state of the Corporation in terms of
Architecture      performance, business, data, services, technology, and security, and lays out
                  a plan for transitioning from the current state to the desired future state. It
                  captures and clarifies how various business processes, information system
                  components, and people work together to accomplish the mission of the
                  Corporation.

Federal           The Federal Information Security Management Act of 2002 (title III, E-
Information       Government Act of 2002), Pub. L. No. 107-347, dated December 17, 2002,
Security          requires federal agencies, including the FDIC, to develop, document, and
Management Act    implement an agency-wide information security program that provides
(FISMA)           security for the information and systems that support the operations and
                  assets of the agency. In addition, FISMA requires agencies to perform
                  annual independent evaluations of their information security programs and
                  practices.


                                             21
                                                                                      Appendix 2

                                Glossary of Terms
General Support      An interconnected set of information resources under the same direct
System (GSS)         management control that shares common functionality. A GSS normally
                     includes hardware, software, information, data, applications,
                     communications, and people.

Information      There are 12 ISMs throughout the FDIC, representing the FDIC
Security Manager divisions and offices. The DIT ISMs support DIT as well as the FDIC’s
(ISM)            executive offices. ISMs assess the level of security in information
                 systems, determine which are major applications, ensure that security
                 requirements are addressed, and promote compliance with FDIC security
                 policies and procedures.

Information          The leadership, organizational structures and processes that ensure IT
Technology (IT)      supports the FDIC’s strategies and objectives.
Governance

Least Privilege      The practice of restricting user access (to data files, to processing capability,
                     or to peripherals) or type of access (read, write, execute, delete) to the
                     minimum necessary to perform a user’s job.

Major                An application that requires special attention to security due to the risk and
Application          magnitude of harm resulting from the loss or misuse of, or unauthorized
                     access to, or modification of the information in the application.

Minor                An application, other than a major application, that requires attention to
Application          security due to the risk and magnitude of harm resulting from the loss,
                     misuse, or unauthorized access to or modification of the information in the
                     application. Such applications are typically part of a GSS or major
                     application.
National Institute   A non-regulatory federal agency within the Department of Commerce’s
of Standards and     Technology Administration. As part of its responsibilities, NIST develops
Technology           and publishes technical, physical, administrative, and management
(NIST)               standards and guidelines for the cost-effective security and privacy of
                     sensitive, but unclassified, information in federal computer systems.

Oracle®              A web browser-based rapid application development tool provided as part
Application          of the Oracle® Database software.
Express (APEX)

Personally           Any information maintained by an agency about an individual, including,
Identifiable         but not limited to, education, financial transactions, medical history, and
Information (PII)    criminal or employment history and information that can be used to
                     distinguish or trace an individual’s identity, such as their name, Social
                     Security number, date and place of birth, etc., including any other personal
                     information that is linked or linkable to an individual. The definition of PII
                     is similar in meaning to the definition of the term “information in
                     identifiable form,” as used in the E-Government Act of 2002.

                                                22
                                                                                      Appendix 2

                               Glossary of Terms
Privacy Impact      A process for (1) examining the risks and ramifications of using information
Assessment (PIA)    technology to collect, maintain, and disseminate PII from or about members
                    of the public and (2) identifying and evaluating protections and alternative
                    processes to mitigate the impact to privacy of collecting such information.
                    The requirement for PIAs flows from Section 208 of the E-Government Act
                    of 2002, which states that agencies (including the FDIC) are required to
                    conduct—prior to developing or acquiring information technology
                    containing PII—an assessment of the agencies’ use of such PII by the
                    technology at issue.

Privacy              A preliminary analysis to determine whether a PIA, or any other privacy
Threshold            compliance documents, is required.
Analysis (PTA)

Production          The end-user environment containing the current version of an application
Environment         that has successfully passed testing and has received approval for promotion
                    into the environment.

Rational Unified A comprehensive process framework that provides industry-tested
Process® (RUP®) practices for software and systems delivery and implementation and for
                 effective project management. RUP® is the standard systems development
                 life cycle methodology used by DIT for the information technology projects
                 it manages. Currently, only DIT is required to use this standard.

Regional Office     Created in 1996 to fulfill management information and automation needs in
Management          the operations of each RMS regional office, ROMIGs provide senior
Information         regional management with a highly specialized and flexible resource to
Groups              meet RMS information demands.
(ROMIGs)
Risk                The process of identifying risk, assessing risk, and taking steps to reduce
Management          risk to an acceptable level in order to protect information resources.

Section 508         Section 508 of the Rehabilitation Act (Pub. L. 93-112, as added Pub. L. 99-
                    506, and codified to 29 U.S.C. § 794d) requires, in general, that agencies
                    ensure that information technology that they develop or acquire be as
                    accessible to persons with disabilities as it is to persons without disabilities.

Security            FISMA requires federal agencies to categorize their information assets in
Category            accordance with NIST standards. NIST Federal Information Processing
                    Standard Publication (FIPS PUB) 199, Standards for Security
                    Categorization of Federal Information and Information Systems, which the
                    FDIC has adopted as policy, sets forth standards for categorizing federal
                    information and information systems based on the FISMA objectives of
                    providing appropriate levels of information security according to a range of
                    risk levels. The publication defines three levels of potential impact (i.e.,
                    High, Moderate, and Low) that could occur should there be a breach of
                    security (i.e., a loss of confidentiality, integrity, or availability). The
                    FDIC’s approach for assigning impact-level ratings is defined in

                                               23
                                                                                   Appendix 2

                             Glossary of Terms
                   Circular 1360.8, Information Security Categorization. Categorizing
                   information and information systems is a critical first step in establishing
                   appropriate security because the categorization is used to determine the
                   minimum set of baseline security controls required to protect the
                   information and information systems.

Sensitive          Any information, the loss, misuse, or unauthorized access to or modification
Information        of which could adversely impact the interests of FDIC in carrying out its
                   programs or the privacy to which individuals are entitled. Such
                   information includes PII; confidential financial information from third
                   parties; as well as information about insurance assessments, resolution and
                   receivership activities, and enforcement, legal, and contracting activities.

Separation of      Addresses the potential for abuse of authorized privileges and helps to
Duties             reduce the risk of malevolent activity without collusion. In the context of
                   information technology, separation of duties includes, for example:
                   (i) dividing mission functions and information system support functions
                   among different individuals and/or roles; (ii) conducting information system
                   support functions with different individuals (e.g., system management,
                   programming, configuration management, quality assurance and testing,
                   and network security); and (iii) ensuring security personnel administering
                   access control functions do not also administer audit functions.

Systems            The phases included in the life of an information system. A typical SDLC
Development Life   includes five phases: initiation, development/acquisition,
Cycle (SDLC)       implementation/assessment, operations/maintenance, and disposal. Each
                   phase involves specific tasks and work products and may be repeated over
                   the life of the information system.

Work Products      Work products, as that term is used in this report, refers to SDLC
                   documents, such as IT project proposals, checklists, ASAs, PTAs, testing
                   plans and summaries, etc.




                                              24
                                                                 Appendix 3

                 Acronyms and Abbreviations
Acronym or
Abbreviation   Explanation
APEX           Application Express
BADS           Business Analysis and Decision Support
BIS            Business Information Systems
BPM            Business Program Management
CIO            Chief Information Officer
CIRC           Capital Investment Review Committee
DIT            Division of Information Technology
DOA            Division of Administration
DRR            Division of Resolutions and Receiverships
DSC            Division of Supervision and Consumer Protection
EA             Enterprise Architecture
EA-Rep         Enterprise Architecture Repository
FDIC           Federal Deposit Insurance Corporation
FISMA          Federal Information Security Management Act
ISM            Information Security Manager
ISPS           Information Security and Privacy Staff
IT             Information Technology
MOU            Memorandum of Understanding
NIST           National Institute of Standards and Technology
PII            Personally Identifiable Information
PRC            RMS IT Portfolio Review Committee
Pub. L.        Public Law
RMS            Division of Risk Management Supervision
ROMIGs         Regional Office Management Information Groups
RUP®           Rational Unified Process®
SDLC           Systems Development Life Cycle
SGB            DRR Systems Governance Board
U.S.C.         United States Code




                                         25
                                                                                            Appendix 4

                                       Corporation Comments




Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington VA. 22226-3500                                           Chief Information Officer

 DATE:                September 6, 2013

 TO:                  Stephen M. Beard
                      Deputy Inspector General for Audits and Evaluations

FROM:                 Martin D. Henning /Signed/
                      Acting Chief Information Officer

SUBJECT:               Management Response to the Draft Evaluation Report Entitled,
                       The FDIC’s Controls Over Business Unit-Led Application Development Activities
                       (Assignment No. 2013-018)

 Thank you for the opportunity to comment on the Office of Inspector General’s (OIG)
 August 2, 2013 draft report on FDIC’s controls over business unit-led application development.
 In its report, the OIG made three recommendations to the Chief Information Officer (CIO).
 Based on the overall results of the audit, the CIO agrees that additional steps should be taken to
 enhance the controls supporting the FDIC’s business unit-led application development activities.

 Specifically, we agree that all FDIC applications should be recorded in a corporate database, that
 the start of application development should be better governed, that application deployment
 should be better governed, and that the costs of development should be better managed. We
 agree that a flexible system development lifecycle standard should be used to achieve these
 objectives. Finally, we agree that a review of existing applications developed outside of DIT
 should be completed to ensure they comply with FDIC security policies.

 We carefully considered and concur with each of the recommendations made by the audit team.
 Corrective actions for each recommendation are planned or in process. Our specific responses
 for each of the recommendations are provided below.




                                                    26
                       Appendix 4

Corporation Comments




         27
                       Appendix 4

Corporation Comments




         28
                                                                            Appendix 5

      Summary of the Corporation’s Corrective Actions
This table presents management’s response to the recommendations in the report and the
status of the recommendations as of the date of report issuance.

Rec.     Corrective Action: Taken or          Expected         Monetary   Resolved:a   Open or
No.                Planned                  Completion Date    Benefits   Yes or No    Closedb
 1.    The FDIC will issue a corporate      January 31, 2014     N/A         Yes        Open
       policy on business unit-led
       application development that
       requires the FDIC’s business units
       to coordinate with DIT to ensure
       that applications developed by
       business units are recorded in the
       Corporation’s information systems
       inventory, when appropriate. The
       policy will also require the
       application of existing written IT
       governance processes at levels
       appropriate for the size,
       complexity, and sensitivity of
       applications and provide direction
       for tracking and reporting
       application development costs.
 2.    The planned corporate policy on      January 31, 2014     N/A         Yes        Open
       business unit-led application
       development will direct the
       FDIC’s business units developing
       applications and DIT’s Project
       Management Office to work
       together to apply the FDIC’s
       existing SDLC commensurate with
       the risks and complexities of new
       development activities.
 3.    DIT will coordinate with DRR and     April 15, 2014       N/A         Yes        Open
       RMS to record business-developed
       applications in the Corporation’s
       information systems inventory, as
       appropriate. DIT will review DRR
       and RMS identified business-
       developed applications for non-
       compliance with FDIC security
       policies. If instances of non-
       compliance are identified, such
       instances will be catalogued and
       communicated to the appropriate
       division(s). Any remedial actions
       will be assigned to an owner and
       milestones will be established

                                              29
                                                                                              Appendix 5

      Summary of the Corporation’s Corrective Actions

Rec.         Corrective Action: Taken or              Expected              Monetary      Resolved:a     Open or
No.                    Planned                      Completion Date         Benefits       Yes or No     Closedb
          commensurate with the severity of
          the non-compliance.
a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the intent
                   of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
  Recommendations will be closed when (a) Corporate Management Control notifies the OIG that corrective
actions are complete or (b) in the case of recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.




                                                      30
